HHS/OIG-Audit--"Review of Unfunded Pension Costs of Blue Cross of Washington and Alaska, (A-07-97-01206)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Blue Cross of Washington and Alaska,"
(A-07-97-01206)
March 18, 1997
Complete Text of Report is available in PDF format
(859 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Blue Cross of Washington and Alaska (Washington/Alaska) for Plan Years 1986
through 1995. Contributions to the pension trust fund for Plan Years 1986 and
1988 through 1993. Accordingly, Washington/Alaska did not fund the pension costs
identifiable with its Medicare segment during this period. As a result, Washington/Alaska
accumulated unfunded pension costs of $106,843 as of January 1, 1996. Washington/Alaska
must separately identify and eliminate this amount from the amortization components
of future pension costs. Washington/Alaska agreed that there are accumulated
unfunded pension costs of $106,843 as of January 1, 1996.